In The
Supreme Court of the United States

FILED
JUL 0 8 2019

Walter C. Lange,
Petitioner
v.

Commissioner of Internal Revenue
Respondent

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Walter C. Lange
1807 N. Shary Rd.
Mission, TX 78572
(956) 581-5559
Petitioner

received
SEP - 9 2019
§5p»fME

QUESTIONS PRESENTED
Whether the income tax under Title 26 of the
U.S. Code is an indirect tax and therefore exclusively an
excise, duty or impost arising from the exercise of a
federal privilege,
whether Petitioner’s adhering to this legal
precept and historical fact can be judicially considered
frivolous and sanctionable,
whether codifying a statute without repealing its
prior version leaves the prior statute controlling as a
matter of Fifth Amendment due process,
whether a Tax Court’s de novo review of a prior
IRS administrative ruling reached below that ruling
and redefined the objectionable conduct without prior
notice in violation of the due process clause of the Fifth
Amendment,
whether the final decision regarding frivolous
conduct was based on language that should be
considered void under the vagueness doctrine of the
Fifth Amendment, and
whether each Court’s monetary sanction is
excessive or inflicts cruel and unusual punishment in
violation either of the Eighth Amendment or
Petitioner’s good faith exercise of his valid beliefs and
his First Amendment rights to petition the government
for redress of grievance.

PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b) the caption of this case
contains the names of all the parties.
TABLE OF CONTENTS
QUESTIONS PRESENTED........

1

PARTIES TO THE PROCEEDING

n

TABLE OF CONTENTS

n

TABLE OF AUTHORITIES

in

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT STATUTORY PROVISIONS

1

INTRODUCTION

2

STATEMENT OF THE CASE

3

Act 1. The Filing . .

3

Act 2. The Betrayal

9

Act 3. The Overreach

11

REASONS FOR GRANTING THE PETITION

18

I. Decisions of the courts of appeals that enforce
Title 26 are divided and some are contrary to this
Court’s opinions on whether the income tax is direct or
18
indirect
II. The questions presented are exceptionally
li

19

important

III. This case offers an ideal vehicle to resolve
these critical issues of constitutional dimension. ... 19
20

CONCLUSION
APPENDICES

Appendix A, Final Opinion of the Fifth Circuit
Court of Appeals.................................................... 21
Appendix B, Order Denying Rehearing ......... 23
Appendix C, Order of the U.S. Tax Court .... 25
TABLE OF AUTHORITIES
Page(s)

Cases
Austin v. United States, 509 U.S. 602 (1993)

17

Brushaber v. Union Pacific R. Co., 240 U.S. 1 (1916) 3-8
Darby v. Cisneros, 509 U.S. 137 (1993)

14

Milkovich v. Lorain Journal Co., 497 U.S. 1 (1990) . 17
Parker v. Comm'r, 724 F.2d 469 (5 th CA, 1984) . 3, 20
Pollock v. Farmer's Loan & Trust, 158 U.S. 601 (1895) 4
South Carolina v. Baker, 485 U.S. 505 (1988)

8

Stanton v. Baltic Mining Co., 240 U.S. 103 (1916) ... 7
Stephan u. United States, 319 U.S. 423 (1943) . . 11, 14
Steward Machine Co. v. Collector of Internal Revenue,
7
301 U.S. 548 (1937) ...............................
South Carolina v. Baker, 485 U.S. 505 (1988)
in

8

United States v. Francisco, 614 F.2d 617 (8th Cir.1980) 3
Statutes
11

26 U.S.C. S 6331

2

28 IJ.S.C. S 3002(15')
1939 I.R.C. $ 3310 .......................

11, 13-14

Revised Statues § 3185. ROA. 235

12-13

Title 1 U.S.C. preamble. June 30.1926. H.R.10000.14-16
Other
1 Cornell Law Quarterly pp. 298, 301 (1915-16) .... 6
29 Harvard Law Review, p.536, (1915-1916)............... 6
House Congressional Record. March 27, 1943, p. 2580,
testimony of Former Treasury Department
legislative draftsman F. Morse Hubbard .... 7-8
Internal Revenue Bulletin 2010-17

9

Peter Eric Hendrickson, Cracking the Code p.72 (15th
ed. 2016).............................................................. 14
Report No. 80-19A. “Some Constitutional Questions
Regarding the Federal Income Tax Laws” by
Howard M. Zaritsky, Legislative Attorney of the
American Law Division of the Library of
8
Congress (1979) ...........................
www.irs.gov/businesses/small-businesses

IV

18-19

PETITION FOR A WRIT OF CERTIORARI
Petitioner Walter C. Lange respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Fifth Circuit.

OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Fifth Circuit (Pet. App. 20) was ordered
not published. The Fifth Circuit’s order denying
rehearing (Pet. App. 22) in its case number 18-60582 is
also unpublished. The order of the United States Tax
Court (Pet. App. 24) in cause number 11492-17L is
unpublished.

JURISDICTION
The judgment of the court of the court of appeals
was entered on January 24, 2019. (Pet. App. 20) The
court of appeals denied a timely petition for rehearing
on April 8, 2019.

RELEVANT STATUTORY PROVISIONS
The United States Constitution Article 1, Section
9 defines a direct tax. The Sixteenth Amendment to the
United States Constitution did not create a new tax.
The Fifth Amendment to the United States Constitution
frames our due process rights.
1

INTRODUCTION
Petitioner relied on a line of cases by this Court
holding that the income tax is an indirect tax under the
Constitution and therefore an excise tax arising only
upon the exercise of a federal privilege. To activate this
reliance Petitioner rebutted all testimony of taxable
income in the form of the 1099-R by use of form 4852.
Receipts from entities “external” to the Federal
Corporation were adjusted to zero and then reported to
the “Internal” Revenue Service (the Service) on form
1040. Receipts from the Social Security Administration
were reported but were insufficient to be taxable.
The Service eventually responded by claiming
these 1040 reports were frivolous and assessing
penalties of $5,000 each assessment. Several, but not
all, were abated by the Tax Court for technical defects
leaving $10,000 in penalties as affirmed. An additional
sanction of $2,500 was assessed by the Tax Court and
$8,000 more was assessed by the 5th Circuit.
Petitioner’s basic claim was never addressed by
any opposing Counsel or any Court. Receipts of monies
not arising from the exercise of a federal privilege are
not taxable. Receipt of funds from the Employee
Retirement System of Texas (ERS of TX) is not the
exercise of a federal privilege. The ERS of TX is not
internal to the Federal Corporation.
The statute 28 U.S.C. 3002(15) clearly defines the
United States as a federal corporation and lists many of
its subdivisions and instrumentalities. The Several
2

States are not listed and Texas is not part of the
Federal Corporation.
STATEMENT OF THE CASE
Act 1. The filing: Each 1040 return of Petitioner
rebutted payer testimony as supplied on the 1099-R.
Form 4852 was included with each 1040 and the
“income” blank was reduced to zero since the
remuneration from the ERS of TX was not from the
exercise of a federal privilege and therefore not in the
nature of an excise taxable activity. The authority for
this position is extensive.
The 16th amendment did not create a new tax
that was neither a direct tax with apportionment nor an
indirect tax with uniformity. By affirming the present
case the Fifth Circuit Court of Appeals (5th CCA) has
violated the principle set out by this Court and other
authorities. The 16th amendment does not originate the
tax nor authorize a tax that is a “non-apportioned
direct tax.”
By affirming the present case the 5th CCA has
also affirmed this erroneous holding set out in Parker v.
Comm'r, 724 F.2d 469 (5 th CA, 1984). But the 5th CCA
is not the only court to fail to understand the Brushaber
ruling. Brushaber v. Union Pacific R. Co., 240 U.S. 1
(1916) The 8th CCA has also made a similar error in
United States v. Francisco, 614 F.2d 617, 619 (8th Cir.
1980).
The confusion caused by this divergence from the
Brushaber line of authorities is harmful to Petitioner
and others seeking to follow the rule of law.
3

The Brushaber court holds that the sole purpose
and effect of the 16th amendment is to undo and
overrule its conclusion in Pollock v. Farmer's Loan &
Trust, 158 U.S. 601 (1895) that a tax on otherwise
excise-taxable dividends and rent becomes a property
tax in those particular applications. The Pollock court
had reasoned that the linkage of dividends and rent to
their personal property sources- the stock or the real
estate from which they are derived- transforms the
income excise on those gains into a property tax on the
sources, which therefore required apportionment in its
imposition.
The 16th Amendment, says the Brushaber court,
severs (prohibits) the “source” linkage imagined by the
Pollock court. This overruling of Pollock allows the bythen 51-year-old income tax statute to be revived and to
resume application as the excise tax it always has been.
The Brushaber court very expressly rules that the
16th Amendment does not accomplish its task by
creating some kind of hybrid tax which can have the
character of a capitation or other direct tax and yet not
be subject to the apportionment rule- a “nonapportioned direct tax”. This was, in fact, the exact
contention of Frank Brushaber (against whom the court
ruled), who reasoned from this faulty notion the
confused conclusion that the post-amendment revival of
the income tax created a Constitutional conflict.
Here is what the unanimous Supreme Court says
(among much else in this very long, thoughtful and
comprehensive ruling):

4

"We are of opinion, however, that the confusion is
not inherent, but rather arises from the
conclusion that the 16th Amendment provides for
a hitherto unknown power of taxation; that is, a
power to levy an income tax which, although
direct, should not be subject to the regulation of
apportionment applicable to all other direct
taxes. And the far-reaching effect of this
erroneous assumption will be made clear by
generalizing the many contentions advanced in
argument to support it....” Brushaber v. Union
Pacific R. Co., 240 U.S. 1 (1916) (emphasis
added).
The court goes on to point out that the very
suggestion of a non-apportioned direct tax is completely
incoherent, because that would cause:
“...one provision of the Constitution [to] destroy
another; that is, [it] would result in bringing the
provisions of the Amendment [supposedly]
exempting a direct tax from apportionment into
irreconcilable conflict with the general
requirement that all direct taxes be apportioned.
... This result, instead of simplifying the
situation and making clear the limitations on the
taxing power, which obviously the Amendment
must have been intended to accomplish, would
create radical and destructive changes in our
constitutional system and multiply confusion."
...and re-iterates its repeated pre-16th
Amendment holdings that:

5

"[T]axation on income [is] in its nature an excise,
entitled to be enforced as such...."
The unanimous Brushaber court flatly holds that
the income tax was, is, and remains an excise tax, and
that the 16th Amendment in no way whatever
authorizes a “non-apportioned direct tax.” Every
possible authority agrees about what the Brushaber
court says:
"The Sixteenth Amendment does not permit
a new class of a direct tax... The
Amendment, the [Supreme] court said, judged
by the purpose for which it was passed, does not
treat income taxes as direct taxes but
simply removed the ground which led to
their being considered as such in the
Pollock case, namely, the source of the income.
Therefore, they are again to be classified in
the class of indirect taxes to which they by
nature belong." Cornell Law Quarterly. 1
Cornell L. Q. nn. 298, 301 (1915-16) (emphasis
added).
"In Brushaber v. Union Pacific Railroad Co., Mr.
C. J. White, upholding the income tax imposed by
the Tariff Act of 1913, construed the Amendment
as a declaration that an income tax is
"indirect," rather than ... an exception to the
rule that direct taxes must be apportioned."
Harvard Law Review. 29 Harv. L. Rev, p. 536,
(1915-1916) (emphasis added).

6

“[B]y the [Brushaber] ruling, it was settled that
the provisions of the Sixteenth Amendment
conferred no new power of taxation, but simply
prohibited the previous complete and plenary
power of income taxation possessed by
Congress from the beginning from being taken
out of the category of indirect taxation to
which it inherently belonged, and being
placed in the category of direct taxation subject to
apportionment by a consideration of the sources
from which the income was derived -- that is, by
testing the tax not by what it was, a tax on
income, but by a mistaken theory deduced from
the origin or source of the income taxed.”
Stanton v. Baltic Mining Co., 240 U.S. 103 (1916)
(emphasis added).
"If [a] tax is a direct one, it shall be
apportioned according to the census or
enumeration. If it is a duty, impost, or excise, it
shall be uniform throughout the United States.
Together, these classes include every form of tax
appropriate to sovereignty. Cf. Burnet v. Brooks,
288 U. S. 378, 288 U. S. 403, 288 U. S. 405;
Brushaber v. Union Pacific R. Co., 240 U. S. 1,
240 U. S. 12." Steward Machine Co. u. Collector
of Internal Revenue, 301 U.S. 548 (1937)
(emphasis added).
"The income tax ... is an excise tax with
respect to certain activities and privileges
which is measured by reference to the income
which they produce. The income is not the subject
7

of the tax; it is the basis for determining the
amount of tax.” ...
"[T]he amendment made it possible to bring
investment income within the scope of the
general income-tax law, but did not change the
character of the tax. It is still fundamentally an
excise or duty..." House Congressional Record.
March 27, 1943, p. 2580, testimony of Former
Treasury Department legislative draftsman F.
Morse Hubbard, (emphasis added).
"The Supreme Court, in a decision written by
Chief Justice White, first noted that the
Sixteenth Amendment did not authorize any new
type of tax, nor did it repeal or revoke the tax
clauses of Article I of the Constitution, quoted
above. Direct taxes were, notwithstanding the
advent of the Sixteenth Amendment, still
subject to the rule of apportionment....”
Report No. 80-19A. 'Some Constitutional
Questions Regarding the Federal Income Tax
Laws' bv Howard M. Zaritsky, Legislative
Attorney of the American Law Division of the
Library of Congress (1979) (emphasis added).
"[T]he sole purpose of the Sixteenth Amendment
was to remove the apportionment requirement
for whichever incomes were otherwise
taxable. 45 Cong. Rec. 2245-2246 (1910); id. at
2539; see also Brushaber v. Union Pacific R. Co.,
240 U. S. 1, 240 U. S. 17-18 (1916)" South
Carolina v. Baker, 485 U.S. 505 (1988), fn 13
(emphasis added).
8

As stated, the authorities agree, the income tax is
an excise tax subject to the rule of uniformity. The
present case stands on this rule of law and the prior
court should have so held.
Act 2. The betrayal: The due process clause of
the Fifth Amendment appears violated in at least 3
instances.
First, since the returns were valid under existing
law, it was error not to process them as submitted by
Petitioner.
Second, the assessment of a frivolous penalty
under Internal Revenue Bulletin 2010-17 III position
argument (44) (ARG 44) (claimed a religious
organization was involved) was clearly a false
assessment under a fraudulent scheme and therefore a
betrayal of the truth.
Third, during the hearing, Counsel for the
Service admitted the fact that Petitioner had never
claimed contact with a religious organization on any
form 1040 and abandoned that ARG 44 claim, but she
requested the Court re-assess the penalty under
something called the “flush language” of the same
bulletin. This request was without notice in any
pleading and beyond the scope of even a ‘de novo’ review
of the due process hearing by the Service.
Further due process issues exist within the “flush
language” of I. R. Bulletin 2010-17.
“Returns or submissions that contain positions
not listed above, which on their face have no
9

basis for validity in existing law, or which have
been deemed frivolous in a published opinion of
the United States Tax Court or other court of
competent jurisdiction, may be determined to
reflect a desire to delay or impede the
administration of Federal tax laws and thereby
subject to the $5,000 penalty.” Internal Revenue
Bulletin 2010-17 III
A second reading may be needed. It states that a
return with “no basis for validity in existing law, or...”.
So we must presume the converse must be possible. A
return that does have a basis for validity in existing law
can take the second choice following the conjunction
“or” to be a position deemed frivolous. A valid return
can be frivolous if a tax court so states. That could
mean any return could be frivolous, especially one that
used the appeal process since that causes delay.
To follow the “flush language” would permit a
return that was valid in existing law to be determined
to reflect a desire to delay or impede. This language
permits a valid return to be sanctioned. There is no
objective standard stated that can be measured and
applied uniformly. This abuse of legislature’s
delegation of authority to administrators has become so
extensive that it has lead to arbitrary prosecution. This
“flush language” should be stricken under the ‘void for
vagueness’ doctrine of the Fifth Amendment.
Further, to abandon the argument 44 language
that had been outlined in the FOIA requests in the
middle of the hearing in Tax Court and then
substituting another without notice to Petitioner is trial
10

by ambush. Petitioner had no opportunity to review
this claim in advance of the trial. No advance warning
was given that arg 44 would be abandoned and no
warning that another basis would be advanced. This is
yet another violation of due process standards.
Act 3. The Overreach: After failing to process
the returns as self-assessed, and after assessing
frivolous penalties that were fraudulently declared, the
Service sent “notice of intent to levy.” During the due
process hearing Petitioner attempted to explain that the
levy process was not available in this instance. The
implementing language of the original Internal
Revenue Code (IRC) made it clear that the codification
process did not change the existing law. Even further,
all conflict between the IRC and the Revised Statutes
must be resolved in favor of the Revised Statutes.
“By 1 U.S.C. 54(a), 1 U.S.C.A. 54(a) the Code
establishes 'prima facie' the laws of the United
States. But the very meaning of 'prima facie' is
that the Code cannot prevail over the Statutes at
Large when the two are inconsistent.” Stephan v.
United States, 319 U.S. 423 (1943). [The section 1
U.S.C. 54(a) to which the court refers is now 1
USC 204]
The power to levy is set out at 26 U.S.C. 6331
and employs language that seems expansive and
sweeping in scope. However, the derivation table for
section 6331 of the current code shows the source as
section 3310(a) of the 1939 IRC. Section 3310(a), in
turn, show the source as R S. 3185. The point of
interest is that Revised Statutes section 3185 limits the
11

power of restraint to monthly filers and “all returns for
which no provision is otherwise made.”
R. S. Sec. 3185. “All returns required to be
made monthly by any person liable to tax shall
be made on or before the tenth day of each
month, and the tax assessed or due thereon shall
be returned by the Commissioner of Internal
Revenue to the collector on or before the last day
of each month. All returns for which no
provision is otherwise made shall be made on or
before the tenth day of the month succeeding the
time when the tax is due and liable to be
assessed, and the tax thereon shall be returned
as herein provided for monthly returns, and shall
be due and payable on or before the last day of
the month in which the assessment is so made.
When the said tax is not paid on or before the last
day of the month, as aforesaid, the collector shall
add a penalty of five per centum, together with
interest at the rate of one per centum per month,
upon such tax from the time the same became
due; but no interest for a fraction of a month
shall be demanded: Provided, that notice of the
time when such tax becomes due and payable is
given in such manner as may be prescribed by
the Commissioner of Internal Revenue. It shall
then be the duty of the collector, in case of the
non-payment of said tax on or before the last day
of the month, as aforesaid, to demand payment
thereof, with five per centum added thereto, and
interest at the rate of one per centum per month,
as aforesaid, in the manner prescribed by law;
12

and if said tax, penalty, and interest, are not paid
within ten days after such demand, it shall be
lawful for the collector or his deputy to make
distraint therefor, as provided by law.” (The
interest rate established in this statute was
changed to 6% per annum by section 404 of the
Revenue Act of 1935.) (Emphasis added)
Persons required to file a 1040 return must do so
on an annual basis. No provision is provided for
distraint where returns are required annually. No
exception to this rule was found in the IRC. The levy
process does not extend to accruals from the 1040
returns. Any attempt to levy on deficiencies from a
1040 filing is a nullity under present law.
Section 3310 of the 1939 IRC states the areas
where restraint is granted more clearly. Please note
there is no separate subsection for annual returns. This
is further evidence that distraint was not contemplated
by legislature for persons filing on an annual basis. An
annual filer is not in the class to which the related
provisions apply.
SEC. 3310. RETURNS AND PAYMENT OF TAX.
(a) MONTHLY RETURNS.—All returns required
to be made monthly by any person liable to tax
shall be made on or before the 10th day of each
month, and the tax assessed or due thereon shall
be returned by the Commissioner to the collector
on or before the last day of each month.
(b) OTHER RETURNS.—All returns for which no
provision is otherwise made shall be made on or
13

before the 10th day of the month succeeding the
time when the tax is due and liable to be
assessed, and the tax thereon shall be returned
as herein provided for monthly returns, and shall
be due and payable on or before the last day of
the month in which the assessment is so made.
Section 3310(a), (b) of the 1939 IRC
Since we must exclude a widely held rule of law it
is important that statutory construction support this.
As one researcher stated, “The doctrine is simple and
standard in statutory construction: when an element of a
statute has once been promulgated, it remains the law,
whether spelled out in a future version or not, unless
explicitly repealed.” Peter Eric Hendrickson, Cracking
the Code p.72 (15th ed. 2016).
This interpretive stance is again affirmed by this
court in 1993.
"We note that the statute as codified in the
United States Code refers to "any form of
reconsiderations," with the last word being in the
plural. The version of 10(c) as currently enacted
however, uses the singular "reconsideration." See
this note supra, at 138. We quote the text as
enacted in the Statutes at Large. See Stephan v.
United States, 319 U.S. 423, 426 (1943) ("[T]he
Code cannot prevail over the Statutes at Large
when the two are inconsistent") Darby v.
Cisneros, 509 U.S. 137 (1993)
The Act of June 30, 1926, H.R. 10000, was in fact
the Act in which Congress authorized the "United
14

States Code", and this act is still in effect. The
preamble of this Act clearly states that the coding
process does not have the effect of “repealing or
amending any such law, or as enacting as new law any
matter contained in the Code.”
“AN ACT TO consolidate, codify, and set forth
the general and permanent laws of the United
States in force December seventh, one thousand
nine hundred and twenty-five
Be it enacted by the Senate and House of
Representatives of the United States of America
in Congress assembled, That the fifty titles
hereinafter set forth are intended to embrace the
laws of the United States, general and
permanent in their nature, in force on the 7th
day of December, 1925, compiled into a single
volume under the authority of Congress, and
designated "The Code of the Laws of the United
States of America."
Sec. 2. In all courts, tribunals, and public
offices of the United States, at home or abroad, of
the District of Columbia, and of each State,
Territory, or insular possession of the United
States -(a) The matter set forth in the Code, evidenced
as hereinafter in this section provided, shall
establish prima facie the laws of the United
States, general and permanent in their nature, in
force on the 7th day of December, 1925; but
nothing in this Act shall be construed as
15

repealing or amending any such law, or as
enacting as new law any matter contained in the
Code. In case of any inconsistency arising
through omission or otherwise between the
provisions of any section of this Code and the
corresponding portion of legislation heretofore
enacted effect shall be given for all purposes
whatsoever to such enactments.
(b) Copies of this Act printed at the
Government Printing Office and bearing its
imprint shall be conclusive evidence of the
original of the Code in the custody of the
Secretary of State.”
(c) The Code may be cited as "U.S.C." Title 1
U.S.C. preamble. June 30. 1926. H.R. 10000.
Petitioner asks the Court to find there is no
statutory authority to levy on Petitioner for any sums of
money arising from the filing the annual 1040 returns.
Any attempt to so levy is overreaching statutory
permissions.
Further overreach is each Court leveling
monetary sanctions on Petitioner as punishment for the
exercise of his First Amendment right to state his valid
beliefs and opinions and to petition the government for
redress of grievance. To punish this right is excessive
and/or inflicts cruel and unusual punishment in
violation of the Eighth Amendment.
This case is only about punishment! The Service
set about to punish Petitioner by leveling fines. These
fines were based on a deliberately falsified assessment
16

under argument 44. The Service may have realized
that Petitioner’s 1040 filing was correct and could only
retaliate with economic sanctions. The Tax Court, in
turn, fined Petitioner for some unnamed utterance
during trial. The Court granted relief from the offense
of an argument 44 claim and then went on to find
another claim.
In the chambers conference prior to trial the Tax
Court promised petitioner he would level sanctions if
frivolous arguments were raised. When asked what
those arguments were, he only asserted that Petitioner
would know. The Fifth Circuit then leveled another
fine without naming the specific offense and while
misstating Petitioners case and facts. These acts are
reminiscent of a Hamlet quote, to paraphrase, the
government “doth protest too much, methinks.”
Now the judicial fines total even more than the
remaining fines by the Service and are clearly excessive
and designed to be cruel. Whether they are called
sanctions or fines they are certainly intended to punish
and to limit the exercise of Petitioners right to free
speech and right to petition the government for redress
of grievance.
In Austin v. United States, 509 U.S. 602 (1993),
this Court noted that the application of the Excessive
Fines Clause to civil forfeiture did not depend on
whether it was in a civil or criminal procedure. In
Milkovich v. Lorain Journal Co., 497 U.S. 1 (1990), the
Court states there is no constitutional distinction
between fact and opinion. Therefore, Petitioners
statements in Tax Court were opinions about the
17

statutes supporting the income tax. These opinions
were offered in an attempt to resolve differences of
opinion. The statements of fact were readily verifiable
by checking each statute. The statutes supporting these
fines are too vague to be constitutional.
REASONS FOR GRANTING THE PETITION
I. Decisions of the courts of appeals that
enforce Title 26 are divided and some are
contrary to this Court’s opinion on whether the
income tax is direct or indirect. As stated above,
the Fifth Circuit and the Eighth Circuit have entered
rulings holding that there is something called a direct
tax without apportionment. This has lead to misleading
information from the Service.
For example: on the website and in many of the
publications produced by the IRS this same false claim
is made, as in the example below:
The Law: The courts have both implicitly and
explicitly recognized that the Sixteenth
Amendment authorizes a non-apportioned direct
income tax on United States citizens and that the
federal tax laws as applied are valid. In United
States v. Collins, 920 F.2d 619, 629 (10th Cir.
1990), cert, denied, 500 U.S. 920 (1991), the court
cited Brushaber v. Union Pac. R.R., 240 U.S. 1,
12-19 (1916), and noted that the U.S. Supreme
Court has recognized that the "Sixteenth
Amendment authorizes a direct nonapportioned
tax upon United States citizens throughout the
nation."
18

https://www.irs.gov/businesses/small-businesses-s
elf-emnloved/anti-tax-law-evasion-schemes-law-a
nd-arguments-section-iv (last entry on the page).
II. The questions presented are
exceptionally important. It is impossible to measure
the total impact on the payment of this tax should these
questions be answered as requested. But the unfair
application of this tax is profoundly extensive.
Defending the Constitution against incorrect
interpretation is this Courts highest purpose. The right
to contract, firmly protected in the Constitution, is the
engine that drives the Federal Corporation called the
United States. Each and every contract carries with it
the Federal Privilege and is therefore subject to this
excise tax. The categories are extensive when
considering the legitimate and constitutionally sound
application of the income tax. Some examples could be
T-bill holders, railroad workers, federal employees and
many others. Of greater importance is the damage done
if this contradiction in the application of this legal
standard is left open and not resolved.
III. This case offers an ideal vehicle to
resolve these issues of Constitutional dimension.
As more individuals become aware of this conflict in the
law, more will challenge these false rulings and false
claims made by the Service. In this case both examples
exist. The Service made a false claim regarding the
argument 44 when the 1040 carried no such claim.
Should this writ be approved, the ensuing brief will
illustrate how this false claim was deliberately designed
in the Internal Revenue Manual (IRM). The burden to
19

the Service to pursue false deficiencies is enormous. At
some point the return on this investment will diminish.
The false claims regarding the nature of the tax
and the false claims regarding the entries on the
returns will have to stop. This case has both. This case
can help clear up these legal issues.
The Fifth Circuit’s decision is wrong in this case
and in the Parker case. It takes a long time for a case
that is so clearly on point to get to this level. Please
accept this effort and contribution to greater clarity in
the Rule of Law.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.

Respectfully Submitted

Walter C. Lange

20

